LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 10, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-235: RICHARD JORDAN, ET AL. V. VIRGINIA DEPARTMENT
OF CORRECTIONS
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on December
10, 2019, I caused service to be made pursuant to Rule 29 on the following counsel for
the Respondent:
RESPONDENT:
Toby Jay Heytens
Office of the Attorney General
202 North Ninth Street
Richmond, VA 23219
(804) 786-7240
SolicitorGeneral@oag.state.va.us
This service was effected by depositing three copies of the Petitioners' Reply
Brief in an official “first class mail” receptacle of the United States Post Office as well
as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 10th day of December 2019.

